OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/BOLIVIA’S
ECONOMIC OPPORTUNITIES
PROGRAM
AUDIT REPORT NO. 1-511-08-002-P
FEBRUARY 29, 2008




SAN SALVADOR, EL SALVADOR

                   Office of Inspector General




 February 29, 2008


 MEMORANDUM

 TO: 	                USAID/Bolivia Mission Director, Michael Yates

 FROM: 	              Regional Inspector General/San Salvador, Timothy E. Cox /s/

 SUBJECT:	            Audit of USAID/Bolivia’s Economic Opportunities Program (Report No.
                      1-511-08-002-P)

 This memorandum transmits our report on the subject audit. In finalizing the report, we
 carefully considered USAID/Bolivia’s comments on the draft report and have made
 changes to the report narrative and recommendations as appropriate.

 This report includes nine recommendations for USAID/Bolivia’s action. Management
 decisions have been reached for Recommendation Nos. 1, 3, 5, 7, and 8, and final
 action has been taken on Recommendation No. 3. M/CFO/APC will record final action
 on the other recommendations when planned actions have been completed.

 Management decisions on Recommendation Nos. 2, 4, 6, and 9 be recorded when we
 have agreed with USAID/Bolivia on action plans and timeframes for implementing the
 recommendations. Please advise my office within 30 days of any further actions
 planned or taken to reach management decisions on these recommendations.

 I appreciate the cooperation and courtesy extended to my staff throughout the audit, and
 I hope that this final audit report will be helpful to USAID/Bolivia in managing its
 economic opportunities program.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit, 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objectives ................................................................................................................ 5 


Audit Findings ................................................................................................................. 6 


   Did USAID/Bolivia’s economic opportunities
   activities achieve planned results and what
   has been the impact? ................................................................................................... 6

            Economic Opportunities Strategy Needs
            to Be Reassessed ............................................................................................. 11

            Opportunities May Exist to Increase the
            MAPA 2 Project’s Effectiveness ……………………………………………………15

            Impact of the Trade and Investment
            Capacity Activity Can Be Increased………………………………………………..16

   Did USAID/Bolivia’s reporting on its economic
   opportunities activities provide stakeholders
   with complete and accurate information on the
   progress of the activities and the results achieved? ................................................... 18

            Performance Planning and
            Reporting Should Be Improved ......................................................................... 18 


Appendix I – Scope and Methodology ........................................................................ 23 


Appendix II – Management Comments ....................................................................... 26 

SUMMARY OF RESULTS

The overall objective of USAID/Bolivia’s economic opportunities program is to increase
the incomes of Bolivia’s poor. The program includes four program elements: financial
services, agricultural sector productivity, trade and investment capacity, and economic
sustainability in food-insecure areas (page 4).

The Regional Inspector General/San Salvador performed an audit of USAID/Bolivia’s
economic opportunities program to answer the following questions (page 5):

•	 Did USAID/Bolivia’s economic opportunities activities achieve planned results and what
   has been the impact?

•	 Did USAID/Bolivia’s reporting on its economic opportunities activities provide
   stakeholders with complete and accurate information on the progress of the activities
   and the results achieved?

In FY 2007, USAID/Bolivia’s economic opportunities activities achieved planned results
with respect to 11 of 17 performance targets reviewed. However, actual results fell short
of targets for commodity chains established or improved in the valleys region, production
units receiving technological services in the altiplano region, number of new jobs created
in nontraditional export industries, and the number of people trained under the trade and
investment capacity program element. Also, the information that was reported for the
average annual income of rural households receiving assistance in the valleys and
altiplano regions was not comparable to established targets, so we could not evaluate
progress against these two targets. Finally, for the number of commodity chains
established or improved and the number of production units receiving technological
services in the altiplano region, USAID’s contractor was not able to provide
documentation supporting the reported results, so we were not able to verify whether
planned results were achieved for these performance indicators. Notwithstanding these
exceptions, the results achieved under the program are significant given the size of the
program and the difficult country environment in which it is implemented. These results
are due in large part to selection of highly qualified contractors and recipients and active
management and monitoring by USAID/Bolivia staff (page 6). Nonetheless, the
economic opportunities strategy needs to be revised since the current strategy’s
assumptions have been overtaken by events. At the same time, there is an opportunity
to refocus the strategy on achieving significant, national-level change: that is, on
transformational development (page 11). There may also be opportunities to increase
the effectiveness of the Market Access and Poverty Alleviation project by reengineering
project activities and realigning project activities and targets (page 15). Finally, there is
an opportunity to increase employment and training impacts and more formally replicate
successes achieved through firm-level assistance (page 16).

While USAID/Bolivia staff approached their reporting responsibilities conscientiously, the
mission’s reporting on the economic opportunities program was not complete or
accurate. In several cases, targets under the economic opportunities program were not
defined precisely, were unrealistic, or were not consistent with targets defined by
contractors. Also, in several cases, information on actual results was inaccurate or
incomplete (page 18).


                                                                                           1
This report recommends that USAID/Bolivia:

•	 Reassess the strategy for the economic opportunities program to reflect current
   conditions (page 14).

•	 Expand opportunities within its current program to educate the public about economic
   issues and support the policymaking process (page 14).

•	 Adjust activities and performance targets under the Market Access and Poverty
   Alleviation to reflect the loss of foundation funding at the end of 2007 (page 16).

•	 Take steps to increase the employment impact of the trade and investment capacity
   program element and implement more formal means of replicating successes (page
   18).

•	 Ensure that partner performance targets for the trade and investment capacity program
   element are consistent with the performance targets in the mission’s performance
   management plan (page 21).

•	 In its performance management plan, correctly define the performance indicators for
   the “average annual income for rural households” and “number of new (full-time
   equivalent/permanent) jobs generated in non-traditional export” performance indicators
   (page 21).

•	 Report on all of its performance management plan performance indicators for the
   economic opportunities program in the next operational plan results report (page 21).

•	 Include narrative information in its next operational plan results report that conveys a
   complete and accurate picture of the economic opportunities program results (page 21).

•	 Revise its controls over performance planning and reporting to provide reasonable
   assurance that targets are correctly defined and set at appropriate levels and that
   reported results are complete and accurate (page 22).

USAID/Bolivia was in general agreement with most of the report recommendations,
although it suggested changes to some of the recommendations. Management
decisions have been reached on five of the recommendations and management
decisions can be reached on the other four recommendations when we and
USAID/Bolivia agree on firm plans of action and timeframes for implementing the
recommendations. Our evaluation of USAID/Bolivia’s comments is provided following
each finding in the report, and USAID/Bolivia’s comments in their entirety are
reproduced in appendix 2 (page 26).




                                                                                         2
BACKGROUND

Bolivia is a poor, landlocked country with a high level of social conflict. The country has
considerable natural resources, including natural gas, minerals, and agricultural
resources. On the other hand, it is divided by numerous natural barriers, and the road
network is poorly developed. With a population of 9.1 million (June 2007 estimate) and
a per capita income of $3,100 (2006, purchasing power parity basis), the domestic
market is small.

After five years of flat or negative real per capita gross domestic product (GDP) growth
from 1999 through 2003, real per capita GDP improved 1.9 percent in 2004, 1.8 percent
in 2005, and 2.5 percent in 2006, in large part due to strong international commodity
prices and especially hydrocarbon prices.

The majority of the population is of indigenous ancestry, and the country has three
official languages: Spanish, Quechua, and Aymara. According to a 2002 study
commissioned by USAID/Bolivia, Bolivia’s most important problems are poverty and
social exclusion.1 Bolivia’s stratified social structure and highly unequal distribution of
income are paralleled by pronounced differences in urban and rural poverty rates. In
urban areas, 51 percent of the population is below the national poverty line. In rural
areas, where about 35 percent of the population lives, the poverty rate rises to 82
percent.

Political instability has been a recurring theme in Bolivia’s development, and the country
has had five presidents since August 2001. Current President Evo Morales, elected in
December 2005, is committed to a state-led economic model.                     According to
USAID/Bolivia, instability over the past decade has led to years of weak private
investment, and the business environment, as measured by the Heritage Foundation’s
Index of Economic Freedom, is now the second worst in Latin America after Venezuela.
Figure 1 shows the evolution of this index for Bolivia over the last 10 years.

Figure 1. Index of Economic Freedom for Bolivia, 1998 – 2007

    70

    68

    66

    64

    62

    60

    58

    56

    54

    52

    50
         1998     1999    2000    2001   2002   2003   2004   2005   2006   2007
    Source: Heritage Foundation




1
    Tironi Asociados Bolivia, “Analysis of the Trade and Business Environment in Bolivia.”


                                                                                             3
As a consequence of the deterioration of the business environment, gross fixed capital
formation (a measure of investment) fell to 13.2 percent of GDP in 2006, the lowest level
of any country in Latin America (Figure 2).

Figure 2. Bolivia Gross Fixed Capital Formation, 1997 – 2006

                  25




                  20




                  15
 Percent of GDP




                  10




                   5




                   0
                          1997          1998          1999          2000       2001   2002   2003   2004   2005   2006

                   Source: W orld Bank, W orld Development Indicators Online




The overall objective of the USAID/Bolivia’s economic opportunities program, which
began in September 2005, is to increase the incomes of Bolivia’s poor. The program
includes four program elements:

•	 Financial Services – Under this program element, the World Council of Credit
   Unions, financed through a $2.4 million, three-year cooperative agreement ending in
   September 2009, works to expand financial service points in underserved areas,
   introduce new financial products and services, engage in dialogue with financial
   institutions and the government on policy issues, provide training to financial
   institutions and their clients, and undertake economic policy analysis.

•	 Agricultural Sector Productivity – This program element is implemented by three
   organizations: the Center for the Promotion of Sustainable Technologies under a
   $638,702, four-year cooperative agreement that supports a global development
   alliance and ends in September 2010, Chemonics International, under a $9.4 million,
   five-year contract for the Market Access and Poverty Alleviation (MAPA 2) project
   that ends in September 2010, and the Fundación para el Desarrollo Tecnológico
   Agropecuario-Valles (FTDA-Valles), under a $1 million, five-year cooperative
   agreement that ends in November 2010. The activities carried out by each entity are
   summarized below:

                       o	 The Center for the Promotion of Sustainable Technologies and its alliance
                          partners are undertaking activities to grow and process organic certified quinoa
                          (a protein-rich, gluten-free grain) on an industrial scale.

                       o	 Chemonics and FTDA-Valles work closely together to provide technical
                          assistance and marketing services to farmer associations and strengthen local
                          institutions. The approach focuses on developing commodity chains – that is,
                          strategic alliances between producers, marketers, and others who add value to
                          agricultural products.


                                                                                                                         4
•	 Trade and Investment Capacity – This program element is implemented by
   Chemonics International under a $12.2 million, four-year contract for the Bolivian
   Trade and Business Competitiveness (BTBC 2) project ending in May 2009.
   Chemonics hires consultants who provide business advice and technical assistance
   to firms involved in nontraditional exports, mainly in the textile/apparel and wood
   sectors. Chemonics also operates two regional offices that identify and develop
   market opportunities and assist small and medium enterprises in production,
   management, and marketing. Chemonics provides training to the private and public
   sector and supports dialogue between the private and public sectors, advocacy, and
   public outreach activities. Finally, Chemonics facilitates access of small and medium
   enterprises to credit.

•	 Public Law (PL) 480 Title II/Economic Sustainability in Food Insecure Areas – USAID
   provides PL 480 Title II food commodities and Section 202 (e) grant funds to four
   cooperating sponsors (the Adventist Development and Relief Agency, CARE
   International, Food for the Hungry International, and Save the Children) to help carry
   out activities that increase rural incomes by providing infrastructure (roads, irrigation
   systems, silos, etc.) technical assistance, and marketing services. Activities to
   increase rural incomes are provided in an integrated fashion with maternal and child
   health and environmental activities, but only the rural income activities are part of
   USAID/Bolivia’s economic opportunities program which is the subject of this audit.
   The estimated amount of food and grant resources devoted to rural income activities
   by the four cooperating sponsors is $6 million per year. The rural income activities
   will end in December 2008 (December 2007 for CARE).

During the first two years of the program, as of September 30, 2007, $18.3 million had
been obligated and $10.6 million had been expended, in addition to an estimated $12.0
million in PL 480 Title II commodities distributed and Section 202 (e) grant funds
expended. Thus, total expenditures during the first two years of the program were
approximately $22.6 million.

Audit Objectives
As part of its FY 2008 audit plan, the Regional Inspector General/San Salvador
performed an audit of USAID/Bolivia’s economic opportunities program to answer the
following questions:

•	 Did USAID/Bolivia’s economic opportunities activities achieve planned results and what
   has been the impact?

•	 Did USAID/Bolivia’s reporting on its economic opportunities activities provide
   stakeholders with complete and accurate information on the progress of the activities
   and the results achieved?

The audit scope and methodology are presented in appendix I.




                                                                                          5
AUDIT FINDINGS 

Did USAID/Bolivia’s economic opportunities activities achieve
planned results and what has been the impact?

In FY 2007, USAID/Bolivia’s economic opportunities activities achieved planned results
with respect to 11 of 17 performance targets reviewed. However, actual results fell short
of targets for commodity chains established or improved in the valleys region, production
units receiving technological services in the altiplano region, number of new jobs created
in nontraditional export industries, and the number of people trained under the trade and
investment capacity program element. Also, the information that was reported for the
average annual income of rural households receiving assistance in the valleys and
altiplano regions was not comparable to the established targets, so we could not
evaluate progress against these two targets. (In FY 2006, a similar level of performance
was achieved. The following sections provide details.)

Notwithstanding the exceptions mentioned above, we believe that the results achieved
under the program are significant given the size of the program and the difficult country
environment in which it is implemented. These results are due in large part to selection
of highly qualified contractors and recipients and active management and monitoring by
USAID/Bolivia staff. However, there are opportunities to increase the program’s impact
by revising the program strategy, reengineering activities under the Market Access and
Poverty Alleviation (MAPA 2) project, and increasing the performance of the Bolivian
Trade and Business Competitiveness (BTBC 2) program with respect to training,
employment creation, and replication of successful innovations.

The following narrative describes some of the program’s accomplishments, and the
sections beginning on page 11 describe opportunities to increase the program’s impact.

Overall Economic Opportunities Program – USAID/Bolivia used the increase in
agricultural incomes of rural households participating in the MAPA 2 project as its
performance indicator for the overall economic opportunities program. However, the
information reported by USAID/Bolivia’s contractor for this performance indicator did not
correspond to the established targets (a related finding begins on page 18).

Table 1. USAID/Bolivia’s Agricultural Income Increases for Participants in the MAPA 2
Program

             Indicator                         FY 2006                   FY 2007
                                         Target      Achieved       Target    Achieved
Average annual income increase                          Not                      Not
                                            5%                       5%
for rural households – valleys                       available*               available*
Average annual income increase                          Not                      Not
                                            5%                       5%
for rural households - altiplano                     available*               available*
* Neither USAID/Bolivia nor its contractor reported results that were comparable to
these performance targets.




                                                                                           6
Financial Services – As shown in the following table, in FY 2007 USAID/Bolivia
achieved its planned result to open two new points of financial services in rural or
previously unattended areas.

Table 2. Planned and Actual Results for Increased Access to Financial Services in
Previously Unattended Areas

               Indicator                        FY 2006                 FY 2007
                                            Target  Achieved        Target   Achieved
Number of new points of service
opened in previously unattended areas
                                             N/A         N/A           2            2
established with US Government
assistance

The two new service points opened in FY 2007 provide savings, credit, and other
financial services to previously underserved clientele in the cities of Mercado Los
Pocitos and Mercado Ferretero in the eastern department of Santa Cruz. As of
December 3, 2007, these two financial institutions had processed more than 2,800
savings transactions and more than 930 credit transactions.

USAID/Bolivia and the World Council of Credit Unions work with 19 of the country’s 23
regulated credit unions. Within these credit unions, 67 points of service in 7
departments have been integrated with the World Council of Credit Unions’ ServiRed
system, which is designed to facilitate shared branching, national money transfers, and
international remittances services. As of September 2007, ServiRed officials estimate
that they have processed 9,000 transactions. In FY 2008, to further increase access to
financial services, USAID/Bolivia and the World Council of Credit Unions will begin
deploying 80 ATM machines that will use the ServiRed system.

Agricultural Sector Productivity – With USAID assistance, the quinoa alliance led by
the Center for the Promotion of Sustainable Technologies has installed second-
generation processing equipment in five factories (three were operational as of
September 2007). Investigations of more efficient, environmentally sustainable quinoa
production practices at the farm level are underway.

Under the MAPA 2 project, activities in the altiplano have lagged because the foundation
that USAID/Bolivia planned to work with has limited capabilities and is dependent on
other sources of operating funds which will soon cease entirely. In FY 2007, the number
of commodity chains established or improved in the valleys region fell short of the target.
According to USAID/Bolivia, it preferred to focus on current activities rather than
expanding the number of commodity chains further since the Fundación para el
Desarrollo Tecnológico Agropecuario-Valles (FDTA-Valles) was losing funding from
other donors in FY 2007. Nonetheless, Table 3 shows significant accomplishments
under the MAPA 2 project in both FY 2006 and FY 2007.

Table 3. Planned and Actual Results for Agricultural Sector Productivity

             Indicator                       FY 2006                    FY 2007
                                        Target    Achieved          Target   Achieved
Commodity chains established or           8          8                6         3



                                                                                         7
             Indicator                       FY 2006                   FY 2007
                                        Target    Achieved         Target   Achieved
improved – valleys
Commodity chains established or
                                           0            0            1          3*
improved – altiplano
Production units receiving
                                        4,000        14,302        4,000      6,152
technological services – valleys
Production units receiving
                                        1,000         235*         1,000       332*
technological services - altiplano
* These are the results reported by USAID/Bolivia’s contractor. As discussed in the
finding beginning on page 18, the contractor for this activity could not provide
documentation to substantiate these results. Nonetheless, based on our own
observations during field visits, we concluded that the target for commodity chains in
the altiplano was met in FY 2007 and that the target for production units receiving
services was not met in either FY 2006 or FY 2007.

In addition to the performance indicators above, which appeared in USAID/Bolivia’s
performance management plan, FDTA-Valles reported that the adoption rate for new
agricultural technologies introduced under the program in FY 2007 was 69 percent.

During visits to several MAPA 2 projects, beneficiaries indicated that USAID/Bolivia’s
assistance has made a significant difference in their incomes and future prospects. One
of the project’s first and most successful interventions has been the introduction of
organic sweet onions. Currently, Bolivia is the world’s sole producer and exporter of this
crop. Farmers growing organic sweet onions near Oruro said, “We used to have the
worst village in the municipality; now we have the best.” Beneficiaries participating in a
cut flower activity in Quillacollo stated that they have achieved a marked improvement in
the quality of their production. Although they had long been involved with the cut flower
business, their flowers can now compete with those of larger companies in terms of
quality. Near Tarija, farmers have seen their incomes increase by an estimated 20 to 25
percent with the introduction of berries (e.g., blackberries and raspberries) that have a
strong demand on both the local and international markets.




                                                   Berries grown by MAPA 2 beneficiaries.
                                                   Photo taken December 6, 2007, by an OIG
                                                   auditor.




                                                                                        8
Trade and Investment Capacity – Table 4 shows that the BTBC 2 project achieved
targets for exports and the number of small and medium enterprises participating in
value chains, but did not meet targets for training or jobs created.

Table 4. Planned and Actual Results for Trade and Investment Capacity

              Indicator                       FY 2006                 FY 2007
                                         Target   Achieved        Target   Achieved
Total value of exports directly
attributable    to    direct      U.S.
Government (USG) assistance to            5.5         11            5.5            11.6
firms to increase exports (millions of
U.S. dollars)
Number of new (full-time equivalent/
permanent) jobs generated in             1,979       1,080         3,601          1,241
nontraditional export
Number of people trained                 3,562       2,659         6,213          2,982
Number of small and medium-sized
enterprises (SMEs) participating in       83          174           118            279
value-added chains




                                                               Construction of containers for
                                                               liquefied natural gas, Santa
                                                               Cruz, Bolivia. Photo provided
                                                               by the beneficiary.



The BTBC 2 project has provided much-needed technical assistance to small and
medium enterprises not only in the textile and wood sectors, which were identified as
priority sectors, but also in other sectors, such as production of brake pads and highly
engineered steel containers for delivering liquefied gas. Beneficiaries stated that their
revenues and income have increased substantially due to BTBC 2 assistance and that
competitors who did not receive assistance from USAID have tried to replicate their
successes. This is clearly reflected in the number of businesses participating in value-
added chains. Some entrepreneurs have also been assisted in obtaining credit to meet
working capital needs.


                                                                                           9
However, as discussed in the section beginning on page 16, actions are needed to
increase the employment and training impact of the project and more formally replicate
successful innovations.

PL 480 Title II/Economic Sustainability in Food Insecure Areas – In FY 2007, the PL
480 program met all of the performance targets that were included in the operational
plan (see Table 5).

Table 5. Planned and Actual Results for Economic Sustainability in Food Insecure Areas

                        Indicator                                      FY 2007
                                                              Target         Achieved
Number of additional hectares under improved
technologies or management practices as a result of            118             262
USG assistance
Number of rural households benefiting directly from
                                                              10,820          12,292
USG interventions
Number of producer associations, water user
associations, and trade and business associations               26              35
assisted as a result of USG assistance
Number of individuals who have received short-term
agricultural sector productivity training with USG            9,192           12,364
assistance
 Men                                                          5,396           7,109
 Women                                                        3,796           5,255

The PL 480 program is notable for its integrated approach (combining maternal and child
health, income generation, and environmental activities) and its focus on areas of
extreme poverty. Interventions under the PL 480 Title II program have helped increase
incomes through introduction of new crops, higher yields from improved horticultural
practices and post-harvest practices, and improved access to markets. CARE reported
an increase in participant households’ gross agricultural incomes of $441 in FY 2007,
Food for the Hungry International reported an increase of $232, and Save the Children
reported an increase of $431 (the Adventist Development and Relief Agency did not
report on this performance indicator).

One example of a successful intervention is the introduction of maca (a highly nutritious
root crop) by Food for the Hungry International to former potato and quinoa growers in
the altiplano community of Challa Grande. After receiving technical assistance on the
planting, harvesting, and processing of the crop, beneficiaries have participated in fairs
and have made contacts that will help them sell maca in larger quantities. As another
example, beneficiaries in the community of Kusilliri received a micro-irrigation system
through Food for the Hungry International. The community currently has 2.5 hectares of
land under irrigation, where beneficiaries are growing potatoes, alfalfa, and fava beans.
Previously, local farmers could harvest only one crop per year but, with irrigation, two
crops per year are possible. As another example, in the community of Tenería, a
participant in a peach activity implemented by the Save the Children, who had attended
classes on safe use of pesticides and herbicides, described the changes in outlook and
attitudes that accompany success in a new activity: “Instead of using the rustic



                                                                                        10
techniques our fathers used, we are learning and growing.” A project implemented by
CARE in the community of Tucumiya has increased the harvesting of potato seeds from
one to three times per year. Another CARE project in Tarija helped the farmer
association APROMAIS to improve its production and marketing practices. Association
members were receiving $11 per 25 pounds of chamomile, but, with CARE’s assistance,
are now receiving $28 per 25 pounds (using an exchange rate of 7.57 Bolivianos to
$1.00).

Economic Opportunities Strategy Needs to Be Reassessed

Summary: The strategic plan for the economic opportunities program prepared in
February 2005 incorporates two critical assumptions that have now been overtaken by
events: that the Government of Bolivia (GOB) retains its authority and social unrest does
not degenerate into violent conflict, and that the GOB remains committed to free trade
and investment. USAID/Bolivia has not revised its strategy because it believes that the
assumptions are still valid. As a result, the valuable microeconomic results of the
economic opportunities program are at risk of being overshadowed by unfavorable
developments in the macroeconomic and business environment. A related issue is that
USAID/Bolivia’s economic opportunities program focuses on firm-level and to a lesser
degree on sector-level assistance that is not likely to result in transformational
development during any reasonably foreseeable timeframe.

Critical Assumptions – When critical assumptions underlying a development strategy
lose their validity or are in danger of losing validity due to changed circumstances, the
strategy may need to be revised.

USAID/Bolivia’s FY 2005 – FY 2009 strategic plan for the economic opportunities
program, prepared in February 2005, cites two critical assumptions that might prudently
be reassessed at this juncture:

1. 	The GOB retains its authority and social unrest does not degenerate into violent
    conflict.

2. 	 The GOB maintains its commitment to free trade and foreign investment.

The first assumption is still valid, in our judgment, but developments since the strategy
was prepared in 2005 present an increased risk that the assumption may lose its validity.
There is no indication that the GOB has lost its authority in the sense of having lost
control over the public security apparatus, but Bolivian society is increasingly mobilized
and divided along ethnic, geographical, economic, and ideological lines, all of which tend
to coincide with one another. In recent weeks and months, steps to approve a new
constitution through a controversial process have led to higher levels of political violence
– as in Sucre, where approximately 430 people were injured and three people were
killed in fighting on the weekend of November 24, 2007. Controversy over the process
followed to approve the new constitution, and over certain provisions of the draft
constitution, have led four eastern departments to pass statutes declaring their
autonomy. These developments raise the possibility of a higher level of violent conflict
and make it prudent for USAID/Bolivia to examine the effect this would have on its
strategy for the economic opportunities program.




                                                                                         11
The second assumption – that the GOB maintains its commitment to free trade and
foreign investment – also needs to be reexamined. The current administration is
committed to a state-led economic model in which the state is extensively involved in
allocating resources and limiting private economic activity. The GOB has nationalized
hydrocarbon resources and reportedly plans to nationalize the mining sector, the
telecommunications sector, and other key sectors of the economy. The GOB has made
the state-owned hydrocarbon company the sole authorized importer of diesel fuel and
has prohibited private diesel sales over 2,000 liters, leading to widespread shortages
that have harmed agriculture and other economic sectors. The GOB has also created a
new development bank to lend at subsidized interest rates. In response to sharply
increased inflation in 2007, the GOB has employed unorthodox policies including export
restrictions and subsidies for consumption items like wheat flour, potatoes, and beef.
Finally, the GOB has worked to end funding for a system of public-private agricultural
foundations (see the related audit finding beginning on page 15). In 2007, the Heritage
Foundation reported the steepest decline for Bolivia since the Index of Economic
Freedom has been published (see page 3), and Figure 3 below illustrates a rather
precipitous decline in direct foreign investment over the last several years.

Figure 3. Bolivia Net Direct Foreign Investment, 1998 – 2006 (Percent of GDP)

 5.0%

 4.5%

 4.0%

 3.5%

 3.0%

 2.5%

 2.0%

 1.5%

 1.0%

 0.5%

 0.0%
        1998    1999   2000   2001    2002   2003    2004   2005   2006

 Source: United Nations Economic Commission to Latin America on the basis
 of official figures.




Given the changed circumstances described above, including the deterioration in the
investment climate and declines in investment, there is a risk that the important
microeconomic results being achieved by USAID/Bolivia’s economic opportunities
program will be overwhelmed by deterioration of the macroeconomic and policy
environment in Bolivia.

In discussing these issues, USAID/Bolivia officials pointed out that the strategy has
helped preserve and create new market-driven income opportunities for thousands of
families and individuals. Moreover, the program has provided opportunities for
numerous public events and media contacts that have led to favorable media coverage
of private sector economic activities. USAID/Bolivia officials are certain that the program
has helped slow the deterioration of the business environment.



                                                                                        12
Note that we are not arguing that a program with a microeconomic focus can never be
successful in a country where the investment climate is deteriorating. However,
achieving significant national-level change through such a microeconomic approach
would require a much higher level of funding than the current level of roughly $11 million
per year.

Transformational Development – A related issue is that the economic opportunities
program is not designed to achieve transformational development.           USAID’s
programming policy emphasizes the role of foreign aid in promoting transformational
development.2 The State-USAID foreign assistance framework categorizes countries
receiving U.S. Government assistance as rebuilding, developing, transforming, or
sustaining partnership countries, and the intention is that USAID’s programs, in
conjunction with other donor programs and host countries’ own efforts, will help
countries move up through this progression during some foreseeable timeframe.
Transformational development involves significant national-level change.

USAID/Bolivia’s economic opportunities program focuses on firm-level and to a lesser
degree on sector-level change. It includes opportunities to engage in public education
on economic issues and engage GOB officials in dialogue on economic policies, but
these opportunities are not a major focus of the program. Even where opportunities for
dialogue exist, USAID/Bolivia and its partners have found that their access to GOB
officials is limited. There is no realistic possibility that current program activities can
significantly help Bolivia, currently classified as a transforming country, become a
sustaining partnership country during a foreseeable timeframe.3 To illustrate this point,
consider that in FY 2007, under the trade and investment capacity program element,
USAID assistance contributed to the creation of 1,241 new jobs in nontraditional export
industries. While representing a significant program accomplishment, given the modest
level of funding for USAID’s program, these new jobs have no discernable national-level
impact in a country of 9.1 million people, and USAID’s positive contribution to
employment and economic growth is surely dwarfed by factors that USAID/Bolivia’s
economic opportunities program has little or no influence over, such as changes in
enforcement of property rights.

USAID/Bolivia officials have indicated that Bolivia’s classification as a transforming
country is misleading, and they believe that Bolivia is more appropriately classified as a
developing country. In this case, under the State-USAID foreign assistance framework,
one would expect that assistance would focus on encouraging appropriate economic
policies and strengthening institutional capacity to promote broad-based economic

2
     USAID’s focus on transformational development perhaps began with the white paper that was
     presented at an October 2003 mission director’s conference (“U.S. Foreign Aid: Meeting the
     Challenges of the Twenty-First Century”), and the intention to accomplish transformational
     development has been formalized more recently in USAID’s “Policy Framework for Bilateral
     Foreign Aid: Implementing Transformational Diplomacy Through Development” (January
     2006), the foreign assistance framework, and the Joint State-USAID Strategic Plans for Fiscal
     Years 2004 – 2009 and 2007 – 2012.
3
    Transforming countries meet the eligibility criteria established by the Millennium Challenge
     Corporation, specifically including the criterion for political rights. Sustaining partnership
     countries meet the preceding requirements and have also reached upper middle income
     status. For Bolivia, currently a low-income country, to become a sustaining partnership
     country, it must become an upper middle-income country.



                                                                                                13
growth.

It will be challenging to find opportunities to do so, given the very different policy
orientations of our respective governments. One approach would be to place more
emphasis on public advocacy activities and strengthening those within the GOB who
might be more disposed to adopt sound economic policies that will support
transformational development. (This strategic approach is frequently used by donors
when they want to address important development constraints but host government
political will to address the constraints is weak or nonexistent.) It is also important to
recognize that, while the GOB at the highest levels may be hostile to the types of free-
market policies advocated by USAID, and thus is unlikely to be receptive to USAID-
financed policy advice, the GOB is not monolithic. For example, there is reason to
believe that elements within the GOB would be receptive to assistance in the areas of
improving the legal framework for economic governance (e.g., bankruptcy law, land
tenure, and regulation of anticompetitive behavior), product certification, and corporate
social responsibility. Use of jointly programmed host country-owned local currency (e.g.,
from PL 480 Title II programs) may be more acceptable to these elements of the GOB
than USAID appropriated funds, particularly for policy-oriented assistance.

   Recommendation No. 1 – We recommend that USAID/Bolivia reassess the
   strategy for the economic opportunities program to reflect the effect that changed
   circumstances have had on the strategy’s critical assumptions.

   Recommendation No. 2 – We recommend that USAID/Bolivia expand
   opportunities within its current program to encourage appropriate economic
   policies and strengthen institutional capacity to promote broad-based economic
   growth.

Evaluation of Management Comments – In its comments on our draft report,
USAID/Bolivia suggested that Recommendation No. 1 be modified to require a
reassessment of the strategy rather than a revision of the strategy. The mission plans to
identify a group of acknowledged experts on the Bolivian economic and political
environment, who will undertake a reassessment of the critical assumptions that
underpin the strategy as well as a review of program activities. The mission expects to
complete the review by September 2008. Given this planned course of action, the
mission is not prepared at this point to conclude that the strategy needs to be revised.
We have modified the report finding and recommendation accordingly. A management
decision has been reached on this recommendation.

In response to Recommendation No. 2, USAID/Bolivia stated that it is not clear whether
the mission will have opportunities to expand technical assistance in support of
economic policymaking. If the strategy review referred to in the previous paragraph
determines that a stronger focus on economic policy support is needed, the mission is
prepared to refocus its activities. In light of these considerations, the mission suggested
that Recommendation No. 2 be changed from “expand opportunities” to “explore
opportunities.” We believe that the economic opportunities program is unlikely to
contribute significantly to transformational development without a stronger focus on
encouraging appropriate economic policies, so we have retained the original wording of
the recommendation. If, however, the strategy review reaches a different conclusion, we
would be willing to reconsider our position.            A management decision for this
recommendation can be recorded when USAID/Bolivia and we have agreed on a firm


                                                                                        14
plan of action with target dates for implementing this recommendation.

Opportunities May Exist to Increase
the MAPA 2 Project’s Effectiveness
Summary: The MAPA 2 project has fallen short of performance targets for the number of
new commodity chains4 established or strengthened in the valleys region and the
number of production units receiving technical assistance in the altiplano region.
Because USAID/Bolivia is working with foundations that face funding cuts at the end of
2007, USAID/Bolivia preferred to consolidate existing assistance activities rather than
begin new ones. However, Chemonics may be able to take responsibility for some of
the activities currently implemented by the foundations.        Thus, there may be
opportunities to increase project effectiveness by reengineering and realigning project
activities and performance targets.

In FY 2007, the MAPA 2 project fell short of the targets established for two of the four
performance indicators in USAID/Bolivia’s performance management plan. Specifically,
in the valleys region, the project supported 3 new commodity chains, versus 6 planned,
and in the altiplano region, the project provided technical assistance to 332 production
units versus 1,000 planned.

According to USAID/Bolivia officials, these shortfalls were due to a retrenchment of
activities carried out by two public-private foundations (Fundación para el Desarrollo
Tecnológico Agropecuario-Valles, or FTDA-Valles, and Fundación para el Desarrollo
Tecnológico Agropecuario-Altiplano, or FTDA-Altiplano) with USAID funding. We were
told that the GOB no longer supports the work of these foundations, primarily because it
disagrees with their focus on export crops instead of staple crops for local consumption.
While the GOB cannot legally abolish the foundations, it controls a large part of their
funding (32 percent in the case of FTDA-Valles, more in the case of FTDA-Altiplano),
and GOB-controlled funding for the foundations will end on December 31, 2007. In light
of this pending funding cut, USAID/Bolivia preferred to consolidate existing activities
rather than expand the assistance activities implemented by the foundations.

However, it is possible that Chemonics could take over some of the foundations’ current
responsibilities. According to a Chemonics official, there is an imbalance between the
level of staffing and other firm infrastructure that Chemonics has in place and the
amount of funding available for subgrants to producer organizations under the MAPA 2
project. He estimated that Chemonics could effectively manage 75 percent more
subgrant funds with its current staff. (At the same time, he maintained that, because of
indivisibilities, Chemonics could not reduce its staff and still carry out its contract
responsibilities.) When considered in conjunction with the issues discussed above – that
is, constraints on the effectiveness of the foundations participating in the project – it
appears that there may be scope for reallocating some responsibilities from the
foundations to Chemonics.

As a result of the issues described above, there may be opportunities to increase the

4
    Commodity chains are strategic alliances between suppliers and customers, sometimes
    spanning many levels, who cooperate with one another in order to compete successfully with
    others.


                                                                                           15
effectiveness of the MAPA 2 project by reengineering project activities and realigning
project activities and targets.

   Recommendation No. 3 – We recommend that USAID/Bolivia adjust Market
   Access and Poverty Alleviation (MAPA 2) project activities, responsibilities, and
   performance targets, including the subgrants and other activities managed by
   Chemonics International, to reflect the loss of foundation funding at the end of
   2007.

Evaluation of Management Comments – USAID/Bolivia has obtained commitments for
increased levels of funding by municipalities and departments and has determined that
this funding, together with trust funds, will be sufficient to support the planned level of
effort. Therefore, it has concluded that no adjustment of targets will be needed. Based
on this determination, a management decision for Recommendation No. 3 has been
made and final action on the recommendation has been taken.

Impact of the Trade and Investment
Capacity Activity Can Be Increased
Summary: Providing grant assistance to individual firms under the trade and investment
capacity program element is not an end in itself but rather is an instrument used to
provide training and increase employment, and thus increase the incomes of Bolivia’s
poor. However, the number of individuals trained and the number of jobs created have
fallen short of performance targets. In addition, replication of successful experiences,
while occurring to some degree, can be reinforced by introducing more formal
mechanisms for sharing new knowledge. These conditions occurred, for the most part,
because of budget reductions or changed conditions in Bolivia that were not anticipated
at the time that the performance targets were established. Strengthening strategies for
these activities should increase the program’s impact.

The purpose of providing grant assistance to private firms under the BTBC 2 contract
with Chemonics is not to assist the owners of firms per se but rather to raise the incomes
of the poor and stimulate economic growth through training, employment and multiplier
effects.

However, employment generation under the BTBC 2 program has fallen short of targets:
in FY 2006 the program reportedly created 1,080 full-time permanent jobs, 55 percent of
the target of 1,979, and in FY 2007 the program reported creation of 1,241 jobs, 34
percent of the target of 3,601 jobs. There are three main reasons why employment
generation has fallen short of planned levels. The first is that textile and apparel
producers are reluctant to make long-term commitments – like employing additional
workers – when Bolivia’s preferential access to the U.S. market under the Andean Trade
Promotion and Drug Eradication Act is renewed for only a few months at a time. For
example, one program beneficiary would have hired additional workers if not for this
uncertainty but instead had stopped accepting orders from the United States, as the risk
of higher tariffs was too much for him to bear. In addition, we were told that the approval
of a free trade agreement between the United States and Peru in December 2007 puts
Bolivian textile firms at a competitive disadvantage with their counterparts in Peru, as
textile firms in Peru will have more permanent preferential access to the U.S. market.
The second reason why employment gains have been limited is the unfavourable


                                                                                        16
business environment and uncertainty created by tension between the Morales
administration and the private sector. Many program beneficiaries told us that they
constantly had to reassure overseas clients of their ability to fill orders, despite news of
instability in Bolivia. The third reason for limited employment gains is large-scale
emigration of skilled Bolivian workers to Spain, Argentina, and other countries. Given
these circumstances, it might be worthwhile to help textile manufacturers find export
markets outside the United States. It might also be advisable to place somewhat less
emphasis on the textile and wood sectors – identified as priority sectors in Chemonics’
contract – and look for other sectors that have higher employment potential. It should be
noted that BTBC 2 is already pursuing some these strategies.

The number of individuals trained under the BTBC 2 program has also fallen short of
targets: in FY 2006 2,659 were reportedly trained, 75 percent of the targeted 3,562,
while in FY 2007 BTBC 2 reported training 2,982, or 48 percent of the target of 6,213.
This occurred, at least in part, because a contract modification signed in September
2006 decreased the training budget, but the training targets were not adjusted. Another
reason why training has fallen short of targets is the GOB’s reluctance to attend training
on free trade and related matters. USAID/Bolivia should consider whether the content
and planned audiences for training courses under the BTBC 2 program need to be
adjusted. Given the reduced resources available, it might also be appropriate to adjust
the performance targets for training activities.




                                                    Textile worker from Santa Cruz, Bolivia,
                                                    employed under the BTBC 2 project. Photo
                                                    taken on December 6, 2007, by an OIG
                                                    auditor.



Another area that deserves attention is replication of successful innovations from firms
that have received direct assistance under the program to firms that have not. There is
considerable anecdotal evidence that replication is taking place to some degree. On the
other hand, it is unrealistic to expect that most firms that have innovated successfully will
willingly share knowledge with competitors. Given the level of investment in firm-level
assistance under the BTBC 2 activity – $5.2 million over four years – it is important to
find ways to formally share knowledge developed through subgrants, perhaps by
working with associations of businesses, chambers of commerce, or some other level
above the level of individual firms.

Strengthening program strategies for employment generation, training, and replicating



                                                                                          17
successful innovations should increase the impact of the BTBC 2 activity in terms of
increasing the incomes of the poor and stimulating economic growth.

   Recommendation No. 4 – We recommend that USAID/Bolivia take steps to
   increase the employment and training impact of the trade and investment
   capacity program element and implement more formal means of replicating
   successes.

Evaluation of Management Comments – In response to this recommendation,
USAID/Bolivia provided a copy of its contractor’s FY 2008 work plan. In reviewing the
work plan, we noted that it targets lower levels of job creation and training, not higher
levels, so the work plan is not responsive to our recommendation in this sense. With
respect to implementing more formal means of replicating successes, while there are
passages in the work plan that make some reference to this subject, it is unclear to us
what actions, if any, are planned to implement Recommendation No. 4. A management
decision for Recommendation No. 4 can be recorded when we agree with USAID/Bolivia
on a firm plan of action with timeframes for implementing the recommendation.

Did USAID/Bolivia’s reporting on its economic opportunities
activities provide stakeholders with complete and accurate
information on the progress of the activities and the results
achieved?
While USAID/Bolivia staff (and the mission’s contractors and recipients) put a great deal
of effort into their reporting responsibilities, and approached them conscientiously, the
mission’s reporting on the economic opportunities program was not complete or
accurate. The performance planning and reporting issues found during the audit are
discussed in the following section.

Performance Planning and
Reporting Should Be Improved
Summary: The Automated Directives System (ADS) and other USAID policies place
considerable emphasis on establishing reasonable, well-defined performance indicators
and targets, as well as on reporting accurate information on actual results achieved.
However, in several cases, targets under the economic opportunities program were not
defined precisely, were unrealistic, or were not consistent with targets defined by
contactors. Also, in several cases, information on actual results was inaccurate or
unsupported. These reporting issues were largely due to problems associated with the
introduction of the new operational plan reporting format, as well as to weaknesses in
mission controls over reporting.      As a result, stakeholders may gain incorrect
impressions of the progress of the economic opportunities program and its impact.

ADS 203.3.3.4.5 states that each indicator should include performance baselines and
set performance targets that can optimistically but realistically be achieved within the
stated timeframe and with the available resources. Beyond what is specifically stated in
the ADS, it is obviously important to the success of any program that program
performance indicators and targets be unambiguous and expressed consistently. In
order to permit USAID staff to manage for results and produce credible reporting, ADS


                                                                                      18
203.3.5.1 requires performance data to be precise and reliable. USAID TIPS Number 12
emphasizes the importance of documentation, stating that proper documentation is a
process that facilitates the maintenance of quality performance indicators and data.
Such documentation should provide an opportunity for independent checks concerning
the quality of the performance measurement system. Since information in the
operational plan results report and congressional budget justification may be used to
make decisions about the success of USAID’s programs and the level of resources
needed to implement the programs, it is vitally important to present complete and
accurate information in these documents.

In reviewing USAID/Bolivia’s reporting on results achieved under the economic
opportunities program in FYs 2006 and 2007, several anomalies were found:

•	 Two of eight performance indicators were not correctly or precisely defined in the
   performance management plan:

   o	 The performance indicator for the overall economic opportunities program,
      “average annual income for rural households,” is not correctly defined in the
      mission’s performance management plan. In reporting on this performance
      indicator, Chemonics measured agricultural incomes of families participating in
      the MAPA 2 program rather than household income, which would include income
      from employment and other non-agricultural activities. This methodology
      contradicted the one described in the performance management plan, which
      referred to household income. A related issue is that the methodology used by
      Chemonics to report on this performance indicator was not well defined. We
      received several contradictory explanations of how the reported figures were
      compiled, and finally concluded that the reported information could not be
      compared to the targets established in the performance management plan,
      although we are still not certain what the reported figures represent.

   o	 Another indicator, “number of new (full-time equivalent/permanent) jobs
      generated in non-traditional export” was not precisely defined in the performance
      management plan. According to the contractor for the underlying activity,
      “nontraditional exports” include manufactures plus agriculture less soy beans.
      According to the CTO for the activity, non-traditional exports include
      manufactures plus soy beans.

•	 The performance targets for one of eight performance indicators in the performance
   management plan, “average annual income for rural households,” were not set at a
   realistic level. The performance management plan set targets of a 5 percent
   increase for each program year but did not take inflation into account. Consumer
   price inflation was 4.9 percent in 2006 and will exceed 11 percent for 2007,
   effectively rendering the targets inapplicable.

•	 The four performance targets in the mission’s performance management plan for the
   BTBC 2 project for FY 2006 were inconsistent with the performance targets
   maintained by the contractor. Two of the four performance targets for FY 2007 (for
   new jobs created and the number of small and medium enterprises participating in
   value chains) showed the same types of inconsistencies.




                                                                                    19
•	 Two of the four targets included in the FY 2007 operational plan results report for the
   program element “economic sustainability in food insecure areas” were taken from
   an earlier version of the operational plan rather than the current version.

•	 The mission’s contractor could not provide supporting documentation to substantiate
   results reported for two performance indicators under the MAPA 2 project: the
   number of commodity chains established or improved and the number of production
   units receiving technological services in the altiplano region.

•	 The results reported in the FY 2007 operational plan results report were incomplete
   in the sense that the results report only included two of the eight performance
   indicators defined by USAID/Bolivia in its FY 2007 performance management plan.
   While there is no formal requirement that all – or even any – performance
   management plan indicators be included in the results report, we believe that the
   results report needs to present the most complete account of program performance
   that is possible within the constraints of the results report format, so that decision-
   makers in USAID/Washington and the F Bureau have a reasonable basis for judging
   program performance.

•	 The results reported in the FY 2007 operational plan results report for the “economic
   sustainability in food insecure areas” program element were reportedly calculated by
   USAID/Bolivia staff by adding results achieved by the PL 480 Title II cooperating
   sponsors and results achieved under the agricultural productivity program element.
   However, no documentation was available to show how the results were calculated
   or where they were taken from.

•	 Testing of two of the five factual results reported in the FY 2007 congressional
   presentation indicated that both overstated the program’s impact:

   o	 USAID/Bolivia reported that “USAID has contributed significantly to a $203
      million (24%) increase in nontraditional Bolivian exports, which reached $1.07
      billion in FY 2005.” In fact, GOB statistics provided by the mission indicate that
      nontraditional exports fell 2 percent in FY 2005, to $856 million.

   o	 The mission reported that “USAID assistance … improved the business
      environment.” Given the level of funding for the economic opportunities program,
      and the fact that most program resources are directed toward firm-level activities,
      it is questionable whether the program could ever impact the overall business
      environment in Bolivia.

•	 The FY 2007 operational plan results report included more than four pages of
   narrative describing program accomplishments but included almost no information on
   constraints, negative developments affecting the program, or development needs
   that have not been funded. In addition, the narrative opened with a sentence that
   overstated the program’s impact: “In FY 2007, USG assistance contributed to
   increased economic growth and an improved business environment in Bolivia
   through the creation of sustainable jobs and promoting exports of high value-added
   products.” In fact, the program was too small and too focused on firm-level
   assistance to have any discernable effect on economic growth or the business




                                                                                       20
     environment for the country as a whole. In addition, the business environment in
     Bolivia did not improve but rather deteriorated in FY 2007.

The performance planning and reporting issues described above were, in part, a result
of using a new reporting system (the operational plan and the underlying database – the
Foreign Assistance Coordination and Tracking System) that was implemented on a very
aggressive timetable.5 According to mission staff, the guidance for the operational report
changed frequently and emphasized reporting on standardized output indicators over
providing a complete picture of program results. While missions were permitted to add
custom indicators to the operational plan – and USAID/Bolivia did in fact add three
custom indicators for the economic opportunities program – the message received by
mission staff was that what was really wanted in the operational plan results report was
reporting on the standard indicators established in the Foreign Assistance Coordination
and Tracking System and nothing more. These issues also reflect weaknesses in
mission controls over performance planning and reporting. The key control that is
needed is to have an independent person, perhaps in the Program Office, verify the
information provided by the technical offices. While the mission spent a great deal of
time and effort trying to conscientiously report on program accomplishments, relatively
little effort was put into independently checking reported results. In addition, in its
narrative reporting on the program, the mission may have assumed too much knowledge
on the part of its readers and so neglected to provide contextual information that was
needed to correctly interpret some statements.

As a result of the performance planning and reporting issues discussed above,
stakeholders may gain an incorrect impression of the progress of the economic
opportunities program and its impact. This could lead to decisions being made that are
not based on a correct understanding of actual conditions in Bolivia. This might also
lead to dissatisfaction with the mission’s economic opportunities program if stakeholders
believe that actual program impacts are less than those reported.

     Recommendation No. 5 – We recommend that USAID/Bolivia obtain evidence
     that partner performance targets for the Bolivian Trade and Business
     Competitiveness project have been revised to be consistent with the
     performance targets in the mission’s program management plan.

     Recommendation No. 6 – We recommend that USAID/Bolivia correctly define the
     performance indicators in its performance management plan for the “average
     annual income for rural households” and “number of new (full-time
     equivalent/permanent) jobs generated in non-traditional export” indicators.

     Recommendation No. 7 – We recommend that USAID/Bolivia report on all of its
     performance management plan performance indicators for the economic
     opportunities program in the next operational plan results report.

     Recommendation No. 8 – We recommend that USAID/Bolivia include narrative
     information in its next operational plan results report that conveys a complete and
     accurate picture of the economic opportunities program results.

5
    OIG, Audit of USAID’s Capital Planning and Investment Control for the Foreign Assistance
    Coordination and Tracking System (FACTS), Audit Report No. A-000-07-006-P dated
    September 14, 2007.


                                                                                           21
   Recommendation No. 9 – We recommend that USAID/Bolivia revise its controls
   over performance planning and reporting to provide reasonable assurance that
   targets are correctly defined and set at appropriate levels and that reported
   results are complete, accurate, and documented appropriately.

Evaluation of Management Comments – USAID/Bolivia agreed with Recommendation
No. 5 and planned to complete a review and harmonize the performance targets by
August 2008. We agree with the proposed course of action and, therefore, a
management decision has been reached for this recommendation.

Recommendation No. 6 dealt with differences between the way USAID/Bolivia and its
contractors defined two performance indicators: “average annual income for rural
households” and “number of new (full-time equivalent/permanent) jobs generated in non­
traditional export.” The mission’s response regarding the first indicator was not
responsive as it did not address any of the substantive differences between the way the
indicator was described in the mission’s performance management plan and the way the
mission’s contractor reported on the indicator. The mission’s response regarding the
second indicator stated that a review will be conducted and all required actions will be
completed by November 2008. A management decision for this recommendation can be
recorded when we agree with the mission on a firm plan of action with timeframes for
addressing the substantive issues with the first performance indicator.

In response to Recommendation No. 7, the mission will revise its performance
management plans for all of its strategic objectives, indicating which performance
indicators will be included in operational plan results reports as standard and custom
indicators. This will be accomplished in conjunction with the FY 2008 operational plan
process and will be completed by the time the FY 2008 operational plan results report is
completed later this year. We agree with this course of action and accordingly a
management decision has been reached for this recommendation.

Regarding Recommendation No. 8, USAID/Bolivia agreed to include narrative
information that would provide a more balanced picture of accomplishments under the
economic opportunities program in its next operational plan results report due in
November 2008. We agree with the mission’s planned action and, accordingly, a
management decision has been reached for this recommendation.

In response to Recommendation No. 9, USAID/Bolivia planned to update its
performance management plans (see the discussion of Recommendation No. 7 above)
and planned to appoint a monitoring and evaluation officer to oversee the process.
While USAID/Bolivia’s comments were partially responsive to the intent of this
recommendation, they did not identify any specific internal controls that would be
established to provide reasonable assurance that performance targets are correctly
defined and set at appropriate levels and that reported results are complete, accurate,
and documented appropriately. A management decision for Recommendation No. 9 can
be recorded when we agree with the mission on a firm plan of action with timeframes for
implementing this recommendation.




                                                                                     22
                                                                               APPENDIX I


SCOPE AND METHODOLOGY 

Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine (1) whether activities under USAID/Bolivia’s economic opportunities program
achieved planned results and assess their impact and (2) whether reporting provided
stakeholders with complete and accurate information on the progress of the activities
and the results achieved.

In planning and performing the audit, we assessed the mission’s internal controls related
to its economic opportunities activities. The internal controls identified included the
mission performance management plan, mission semi-annual reviews, mission data
quality assessments, cognizant technical officer (CTO) site visits, program progress
reports, day-to-day interaction between mission staff and program implementers, and
the mission’s annual self-assessment of management controls as required by the
Federal Managers’ Financial Integrity Act of 1982.

The audit covered activities under the mission’s second strategic objective, “Increased
Income for Bolivia’s Poor.” The audit was conducted in Bolivia from November 26, 2007
to December 13, 2007. Our audit focused on FYs 2006 and 2007.

Methodology
To answer the audit objectives, we met with CTOs and implementing partners. We
reviewed relevant documentation produced by USAID/Bolivia such as the mission
performance management plan, operating plans, award documents, correspondence,
and field visit reports. We also reviewed contractor-prepared documentation such as
annual work plans and quarterly progress reports.

In order to assess whether results were achieved, we focused on the eight performance
indicators included in the mission’s FY 2007 performance management plan as well as
on four indicators for the PL 480 Title II income generation program that were included in
the mission’s operating plan results report for FY 2007. (These 12 performance
indicators were disaggregated for specific groups of beneficiaries, so they included a
total of 17 performance targets.) We conducted interviews with implementing partners
and a sample of beneficiaries at their places of business. We also reviewed progress
reports and visited 31 field activities as discussed below. In selecting field activities for
visits, we judgmentally selected sites, trying to reach the largest range of activities and
geographical areas possible within the six days we allocated for field visits.

In order to determine whether accurate and complete information was reported, we
performed the following steps:

•	 For the financial services program element, we interviewed mission and
   implementing partner personnel and reviewed documentation to determine how
   results are collected for the number of new points of service opened in previously



                                                                                          23
                                                                                   APPENDIX I 


   unattended areas. We then visited the new points of services in Santa Cruz and
   ServiRed’s main offices in Cochabamba in order to verify their physical existence
   and operation.




                                                      Visit to a new financial services location in
                                                      an underserved area near Santa Cruz,
                                                      Bolivia. The photo was taken by an OIG
                                                      auditor on December 3, 2007.


•	 For agricultural activities, we interviewed mission and implementing partner
   personnel and reviewed documentation to determine how results are collected for
   the average annual income for rural households, the number of commodity chains
   established or improved, and the number of families receiving technological services.
   Additionally, we visited two field sites of the Center for the Promotion of Sustainable
   Technologies in the department of La Paz and seven projects in the departments of
   Cochabamba, Oruro, and Tarija under the Market Access and Poverty Alleviation
   (MAPA 2) program.

•	 For trade and investment capacity activities, we interviewed mission and
   implementing partner personnel and reviewed documentation to determine how
   results are collected for the total value of exports directly attributable to direct U.S.
   Government (USG) assistance to firms to increase exports, the number of new jobs
   generated in nontraditional export areas, the number of people trained, and the
   number of small and medium-sized enterprises participating in value-added chains.
   We visited eight businesses in Santa Cruz that have been assisted by the Bolivian
   Trade and Business Competitiveness program.

•	 For PL 480 Title II activities, we interviewed mission and implementing partner
   personnel and reviewed documentation to determine how results are collected for
   the number of additional hectares under improved technologies or management
   practices as a result of USG assistance, the number of rural households benefiting
   directly from USG interventions, the number of producer, water user, trade and
   business, and community based organizations receiving USG assistance, and the
   number of individuals receiving USG-supported short-term agricultural sector
   productivity training. We visited three CARE projects, six Food for the Hungry
   projects, and five Save the Children projects that have received assistance under the
   PL 480 program.

The field activities selected for visits are compared with the populations we drew the


                                                                                               24
                                                              APPENDIX I

samples from in Table 6:

Table 6. Sample of Field Activities Visited

Activity                                             Sample   Population
Financial services – new points of service              2         2
MAPA 2 – commodity chains established or improved       7         14
BTBC 2 – enterprises participating in value chains      8        453
PL 480 Title II – income generation activities         14        Not
                                                               available




                                                                       25
                                                                            APPENDIX II 



MANAGEMENT COMMENTS

DATE:         February 15, 2008

REPLY TO: Michael Yates, Mission Director, USAID/Bolivia

TO:           Timothy E. Cox, RIG/San Salvador

SUBJECT:      USAID/Bolivia’s response to the draft audit report on the Economic
              Opportunities Program



Under cover of this memorandum, USAID/Bolivia transmits its response to the subject
draft audit report, as requested by Tim Cox by email on January 11, 2007. We appreciate
the opportunity to review and comment on the draft report before it is formally issued.

USAID/Bolivia congratulates the RIG team that undertook this audit. In general, we are
pleased with the results and acknowledge that the set of recommendations provided by
the auditors will help us to improve the impact of the program in the future. We
appreciate that the audit team has worked with us to clarify several issues in the draft
report. The recommendations will guide USAID/Bolivia’s Economic Opportunities
program in rectifying inconsistencies in reporting and strengthening the monitoring and
evaluation of the program.

The EOSOT believes that several comments in the summary of results need to be
modified. We refer in particular to the comment that the contractors were not able to
provide backup documentation on reporting. We have addressed our concerns in our
responses to the recommendation. If you need additional information, please let us know.

We also appreciate the RIG’s conclusion that “Notwithstanding these exceptions [the
inconsistencies noted in audit recommendations], the results achieved under the program
are significant given the size of the program and the difficult country environment in
which it is implemented. These results are due in large part to selection of highly
qualified contractors and recipients and active management and monitoring by
USAID/Bolivia staff.” (pg 1 of Jan 11 2008 Draft Audit Report)

Please find our responses to each of the recommendation below.

As requested, we are providing an original signed copy of this memorandum as well as an
electronic version.

Proposed actions to close specific audit recommendations



                                                                                      26
                                                                               APPENDIX II


USAID/Bolivia has developed a plan to implement a series of actions in order to address
each of the audit recommendations. The actions are described below.

Recommendation No. 1 – We recommend that USAID/Bolivia revise the strategy
for the economic opportunities program to reflect the effect that changed
circumstances have had on the strategy’s critical assumptions.

USAID Bolivia fully embraces the suggestion that a thorough examination of the critical
assumptions underlying the strategy for the economic opportunities program would be
prudent at this juncture. ADS 201.3.9.5 specifically encourages assessments for sectors in
which conditions have changed significantly.

The auditors’ observations prompted USAID/Bolivia to begin to identify
acknowledged experts on the Bolivian economic and political environment who could
assist the Mission to reassess the critical assumptions underpinning our Economic
Opportunity Strategy. At the same time these experts would be asked to review the
current portfolio of economic growth activities, and make recommendations
regarding the future direction of our program and any necessary changes, including
possible support in the areas of national economic policy and strengthened
institutional capacity to promote broad-based economic growth. (See
recommendation No. 2). We expect the assessment to be completed by September
2008.

USAID Bolivia would argue that high-level technical analysis is needed before arriving
at a conclusion that the current strategy should be revised or that activities should be re-
designed. In that sense, the Mission requests that the auditors consider restating
Recommendation No.1 to more precisely direct the Mission to undertake an analysis of
the critical assumptions underlying the strategy for the economic opportunities program.

Recommendation No. 2 – We recommend that USAID/Bolivia expand opportunities
within its current programs to encourage appropriate economic policies and
strengthen institutional capacity to promote broad-based economic growth.

We fully agree that working with the government to improve public economic policy
and strengthen host country institutional capacity is beneficial in promoting broad-
based economic growth. It is important to note that technical assistance to improve
public economic policy was a central part of the Economic Opportunities Strategic
Objective’s activities during many prior host country governments, and while the
opportunities for this type of support are reduced, they remain ongoing. Increasing the
level of effort dedicated to economic policy and institutional strengthening is an open
possibility in the event that the current host country government requests additional
assistance. Should we receive a request for assistance, the EO programs are well
placed and have the expertise to respond. We believe that the level of economic
policy support currently being provided by the on-going activities of the Economic
Opportunities Strategic Objective is appropriate in the context of change occurring in
Bolivia, as expressed by Deputy Chief of Mission Mr. Krishna Urs:


                                                                                           27
                                                                              APPENDIX II 




   “President Evo Morales Ayma came into office in January 2006 with a new set of
   policy objectives that represent a break with Bolivia’s recent past. In contrast to
   the free-market policies of the past two decades, the economic policies of the
   current administration actively pursue a greatly increased state role in the
   production and distribution of goods and services. The transition from prior
   market based economic policies to a new state-centric or “mixed” public-private
   model will take some time for the GOB to complete, under the best of
   circumstances, and it is still uncertain how far it will go.

   During this time of change the US Mission in Bolivia has worked hard to align
   development activities to support new GOB initiatives, where possible, while also
   ensuring that these fall clearly within the scope of the FY2007-2012 joint Dept. of
   State/USAID Strategic Plan. It is difficult to estimate when this stage of flux will
   end, and likewise difficult to predict future GOB policy in certain sectors. Within
   this context, the Mission believes that in the short term technical assistance to the
   GOB to support economic policy improvements is far less likely to achieve
   development results than working directly with private sector partners to help
   them improve their processes to produce more efficiently, generate new jobs and
   increase incomes. In that manner these entrepreneurs (small and large) will be
   able to emphasize that the private sector is a key partner in poverty alleviation and
   economic growth, and this is a truly vital message. Nevertheless, the Mission
   remains poised to offer additional economic policy assistance to the GOB if and
   when the Bolivian government requests such assistance and consistent with sound
   economic development principles.”

One example of the consistency of the Mission’s approach with emerging GOB
policy is shown in the position of the new Minister of Production and
Microenterprise, who says “Now we can start to talk about instruments and
mechanisms to help the private sector, that is large in Bolivia but small and poor in
regional and international terms. We need to strengthen [the private sector]. And the
large private sector, far from being marginalized, is challenged to become a true
engine of economic and productive development.” (Minister Hurtado in an interview
published in the national newspaper La Razon, February 10 2008).

We suggest that several prior steps are necessary before economic policy activities
and institutional strengthening can be reinforced. If the technical analysis provides
recommendations to improve the implementation of the existing strategy, we will take
immediate action to implement their recommendations. If the analysis in response to
Recommendation 1 results in either a confirmation of the existing strategy, or a
proposed change to the existing strategy, the Mission will take appropriate action. If a
new strategy is the suggested course of action, a second phase of work will be
undertaken to delve deeper into the design of activities coherent with this vision of
the Bolivian development context.

Therefore, we request that the auditors rephrase Recommendation 2 to change the



                                                                                           28
                                                                               APPENDIX II


word expand to explore. USAID’s analysis of the existing strategy and critical
assumptions will also be accomplished by September 2008.

Recommendation No. 3 – We recommend that USAID/Bolivia adjust MAPA 2
project activities, responsibilities, and performance targets, including the subgrants
and other activities managed by Chemonics International, to reflect the loss of
foundation funding at the end of 2007.

The MAPA program has recently met with the municipalities and departmental
governments, and they agreed to provide additional funding for the next crop season,
compensating for the lost funding in 2007. For the two final years of MAPA 2
implementation (FY09 and FY10), the Mission has determined that trust fund resources
will be sufficient to fund the expected level of effort of the foundation. In light of this
analysis, we do not anticipate a need to adjust targets in response to funding changes. For
these reasons, the Mission requests that the auditors close this recommendation at the
issuance of the final report.

Recommendation No. 4 – We recommend that USAID/Bolivia take steps to increase the
employment and training impact of the trade and investment capacity program element
and implement more formal means of replicating successes.

In order to increase program impact on employment and training, the program indicates
in its 2007-2008 Work Plan that the strategy to be followed will target high level impacts
in training together with employment generation, emphasizing the support to businesses
with growth potential, incorporating more new businesses under productive chains,
working more closely with chambers and other private and public institutions, and
prioritizing the assistance to small businesses that are interested in diversifying and have
alliances with larger companies.

The FY08 work plan (see the attached) also includes promotion and prioritization of
labor-intensive projects, widening the scope of technical assistance to include artisan and
rural production; and increasing strategic alliances with local training institutions to reach
a much greater number of trainees. More formal means of replicating successful activities
and methodologies are being intensified by working directly and establishing strategic
alliances with trade associations and financial institutions. Also, under this work plan
more attention will be given to training initiatives to improve curricula of courses
developed by training institutions. As the actions to resolve this concern are already being
implemented, the Mission requests that the auditors close this recommendation at the
issuance of the final report.

Recommendation No. 5 – We recommend that USAID/Bolivia ensure that partner
performance targets for the Bolivian Trade and Business Competitiveness project are
consistent with the performance targets in the mission’s program management plan.

USAID/Bolivia recognizes that the performance targets under the Economic
Opportunities Performance Management Plan (PMP) for the trade and investment


                                                                                           29
                                                                               APPENDIX II 



capacity program have not been updated for fiscal year 2007. The EOSOT-PMP targets
for fiscal year 2007 did not reflect the changes made at the contract level in response to
the 33% budget reduction in October 2006. Therefore, USAID/Bolivia will revise the
EOSOT-PMP for the trade and investment capacity program for FY 2008 and FY 2009 to
be consistent with the partner performance targets. In addition, the definition and target
of the employment indicator will be reviewed to show the real impact achieved by the
project, since only direct employment was reported and not the indirect employment
generated. The review process has started. The EOSOT will complete this action by
August 2008, at which time we will request closure of the recommendation.

Recommendation No. 6 – We recommend that USAID/Bolivia correctly define the
performance indicators in its program management plan for the “average annual income
for rural households” and “number of new (full-time equivalent/permanent) jobs
generated in non-traditional export” indicators.

We agree with the auditors that we should apply the same terminology for this indicator,
using “average annual income for rural households” instead of the one used by MAPA,
“average annual income for rural families”. The EOSOT will instruct both the contractor
and grantee to use ‘rural household’ for the terminology in their indicators.

For the indicator ‘number of new jobs generated in non-traditional exports’, as mentioned
previously in the response to Recommendation No. 4, the definition and target of the
employment indicator will be reviewed to show the real impact achieved by the project,
since only direct employment was reported and not the indirect employment generated.
The review will be completed by July 2008, and all necessary actions will be completed
by November 2008.

Recommendation No. 7 – We recommend that USAID/Bolivia report on all of its
program management plan performance indicators for the economic opportunities
program in the next operational plan results report.

For the next Operational Plan Performance Report (OPPR), USAID/Bolivia will report
on all F-approved standard and custom indicators identified in the Mission's most
currently approved Performance Monitoring Plan for the Economic Opportunities
Strategic Objective. Please see the detailed response to Recommendation No. 9 for a
description of the steps the Mission will take to determine and align these indicators for
the 2008 OP due in November of this year.

Recommendation No. 8 – We recommend that USAID/Bolivia include narrative
information in its next operational plan results report that conveys a complete and
accurate picture of the economic opportunities program results.

Current guidance for Foreign Assistance Coordination and Tracking System (FACTS)
reporting is being closely followed by the Mission and we have made great efforts to
report results fully and accurately within the limited space provided. The text of the draft
audit states on page 20 that “The FY 2007 operational plan results report included more


                                                                                          30
                                                                             APPENDIX II 



than four pages of narrative describing program accomplishments but included almost no
information on constraints, negative developments affecting the program, or development
needs that have not been funded.” We concur that these needs and limitations have not
been emphasized in past reporting, and will include such considerations within the space
provided in our 2008 OP performance report due in November of this year.

USAID/Bolivia will continue to follow Operational Plan guidance to ensure that program
results are reported in the most complete and accurate manner consistent with the
numerical results provided in the FACTS Results table. Current guidelines allow for this
discussion in 2 areas – the element performance narratives in the Economic Growth
objective, and at the bottom of FACTS tables for the standard indicators under each
element.

Recommendation No. 9 – We recommend that USAID/Bolivia revise its controls over
performance planning and reporting to provide reasonable assurance that targets are
correctly defined and set at appropriate levels and that reported results are complete,
accurate, and documented appropriately.

During FY 2008, USAID/Bolivia plans to update the PMPs for all active programs under
the F framework. The PMPs for each Strategic Objective (SO) or F Objective will clearly
identify all “Standard F Indicators” and “Custom Indicators” that are approved by F for
inclusion in future Operational Plans and OP Performance Reports. The PMP will also
identify other Mission indicators deemed necessary for Mission monitoring of its active
portfolio. The complete PMP list for each SO approved by Mission management will be
reviewed and revised during each Mission semi-annual activity review (SAAR) and will
serve as a data base for reporting on standard and custom indicators in annual OPs and OP
Performance Reports.

The process to update the Mission’s five SO PMPs will occur in phases, with certain
benchmarks: 1) Mission identification and approval of all Standard F and Custom indicators
for FY 08 and 09 will be completed in conjunction with the FY 08 Operational Plan process
as F provides the most recent, revised list of standard indicators; 2) Revision of
implementing partners’ work plans and contracts/grant agreements as appropriate to
coincide with timing of and types of required indicator reporting under the F framework and
to identify additional indicators required to be reported to USAID/Bolivia for internal
mission monitoring of USAID-funded activities; and 3) Preparation of a complete PMP for
each SO for use during the end-of-FY08 Mission SAAR reviews and for inclusion in the FY
08 OP Performance Report.

To ensure compliance with SO Team indicator definition, setting of appropriate target
levels, and target reporting of the approved PMPs, and once our Strategy and Operations
Services Office (SOS) is fully staffed, a Mission-wide Monitoring and Evaluation (M&E)
Officer will be identified within the SOS Office to coordinate the development and updating
of all PMPs. This will be completed by November 2008.




                                                                                          31
                                                                             APPENDIX II 



Other comments:

1.	 On the performance indicator “Average annual income for rural households”, the
    definition of the indicator was not expressed correctly. A more appropriate definition
    of the measurement is as follows -

   Measurement of “Average annual income for rural households”: This household
   income will be compared with the income of non beneficiaries living within the same
   geographic boundaries and under comparable conditions. The household income will
   not be compared with incomes generated the previous year.

2.	 We would like to take this opportunity to provide copies of the documentation for the
    information reported on the results for ‘average annual income for rural households’
    and ‘commodity chains established or improved’ for both Valles and Altiplano.

  Indicator 2a: Average annual income for rural households




The target for “Average annual household increase’ was 5%, the results of ‘Income
increase on the Valleys region’ for the agriculture season 2005-2006 reached 48%.

The target for “Average annual household increase was 5%, the results of Income
increase on the Altiplano region for the agriculture season 2005-2006 reached 23%.
In both cases, Valleys and Altiplano MAPA and FDTA/Valles achieved results.




                                                                                        32
                                                                      APPENDIX II 



  Indicator 2.2a: Commodity chains established or improved




Commodity chains include: Onions, Oregano, Hot Peppers, Tomatoes, Table Grapes,
Peanuts, Peaches, Berries, Dairy, and Flowers




Commodity chains include: Sweet Organic Onions




                                                                                  33
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
